No. ____________
IN THE SUPREME COURT OF THE UNITED STATES
JUAN ANIBAL PATRONE
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Juan Anibal Patrone, pursuant to 18 U.S.C. ยง 3006A and Rule 39 of the
United States Supreme Court, asks leave to file the attached petition for writ of
Certiorari without prepayment of costs, and to proceed in forma pauperis. Pursuant to
an appointment under the Criminal Justice Act of 1964, as amended, undersigned
counsel Leonard E. Milligan III was appointed to represent the Petitioner in the U.S.
District Court for the District of Massachusetts and in the U.S. Court of Appeals for the
First Circuit.

Date: June 8, 2021

Respectfully submitted,
JUAN ANIBAL PATRONE
By his attorney
/s/Leonard E. Milligan III
_____________________
Leonard E. Milligan III
Milligan Rona Duran & King LLC
50 Congress Street, Suite 600
Boston, MA 02109
(617) 395-9570
lem@mrdklaw.com

